X

No.

Supreme Court of the ©ntteb &tste0
JUNIOR GRIFFIN,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
CERTIFICATE OF FILING
AND SERVICE
I, Junior Griffin, being first duly sworn according to law, depose and say that the required
number of the following documents:
1.)

Petition for Writ of Certiorari to the United States Court of Appeals for the
Second Circuit;

2.)

Motion for Leave to Proceed in Forma Pauperis;

were this day filed with this Court and served on counsel for the United States on this same date,
by depositing the required number of originals and copies of the documents into the prison legal
mail collection box, in sealed envelopes, first class United States postage prepaid and addressed

%

V

to: Supreme Court of the United States, Office of the Clerk, 1 First Street N.E.,
Washington, DC 20543, and United States Attorney, For The Southern District of New
York, 1 Saint Andrew’s Plaza, New York, NY 10007, (212-637-2192) (counsel for respondent)
and Solicitor General, Department of Justice, Washington, DC 20530 (Phone: 202-514-2217)
(counsel for respondent).
1 further state that I am incarcerated in the federal prison at Philipsburg, PA 16866, and
am filing the documents pro se.
Signed under penalty of perjury
under 28 U.S.C. § 1746, this 'Z
j2020.
day of
JUNIOR GRIFFIN /U
78178-054
555 Geo Drive
Philipsburg, PA 16866

